No.

]n tbe

~upreme ~ourt of tbe mtntteb ~tates
GREGORY ATKINS, CHRISTOPHER GOOCH, KEVIN PROFFITT, and THOMAS ROLLINS, JR., on behalf
of themselves and all others similarly situated,

Petitioners,
V.

DR. KENNETH WILLIAMS, Medical Director, Tennessee Department of Correction,
in his official capacity,

Respondent.
CERTIFICATE OF SERVICE
I, counsel for Petitioners and a member of the Bar of this Court, certify that on January 8,
2021, the Petition for Writ of Certiorari in the above-captioned case was served by agreement by
electronic mail upon all parties required, pursuant to the Court's Order of April 15 , 2020:
James R. Newsom III
Steven A. Hart
Matthew R. Dowty
Office of the Tennessee Attorney General
P.O. Box 20207
Nashville, Tennessee 37202-0207
(615) 741-3491
jim.newsom@ag.tn.gov
steve.hart@ag.tn. gov
matthew.dowty@ag.tn.gov

Counsel for Respondent
I declare under penalty of perjury that the foregoing is true and correct.

~~

Michael J. Wall
January 8, 2021

